                                                                  Issue Date
                                                                               April 3, 2007
                                                                  Audit Report Number
                                                                           2007-LA-1007




TO:         K.J. Brockington, Acting Director, Los Angeles Office of Public Housing, 9DPH



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the County of Los Angeles, Los Angeles, California,
           Did Not Adequately Conduct Housing Quality Standards Inspections

                                   HIGHLIGHTS

 What We Audited and Why

             We reviewed the Housing Authority of the County of Los Angeles’ (Authority)
             housing quality standards policies and procedures for its Section 8 Housing
             Choice Voucher program based on a suggestion from the Los Angeles U.S.
             Department of Housing and Urban Development (HUD) Office of Public
             Housing. The primary reason for the request for audit was HUD’s 2004 review,
             which revealed that the Authority had a recurring problem of not conducting
             annual housing quality standards inspections.

             The objective of the audit was to determine whether the Authority provided
             decent, safe, and sanitary housing for its tenants, thereby meeting housing quality
             standards, and to determine whether the Authority’s inspections of its housing
             units were timely and sufficient to detect violations.

 What We Found
             The Authority did not adequately enforce HUD’s housing quality standards. Of
             68 program units statistically selected for inspection, 50 did not meet minimum
             housing quality standards. In addition, the Authority did not always perform its
           annual inspections within one year as required. Based on our statistical sample,
           we estimate that over the next year, HUD will pay more than $11.5 million in
           housing assistance payments on units with material housing quality standards
           violations.

What We Recommend

           We recommend that the acting director of HUD’s Los Angeles Office of Public
           Housing require the Authority to implement adequate procedures and controls to
           ensure that all units meet HUD’s housing quality standards to prevent $11.5
           million in program funds from being spent on units that are in material
           noncompliance with the standards; verify and certify the applicable owners take
           appropriate corrective action for the housing quality standard violations or take
           enforcement action; and develop adequate controls to enforce the implementation
           of policies and procedures that program units are inspected at least annually to meet
           HUD’s housing quality standards before disbursing housing assistance payments.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided the Authority the draft report on March 6, 2007, and held an exit
           conference with the auditee on March 14, 2007. The Authority generally agreed
           with our report.

           We received the Authority’s response on March 26, 2007. The complete text of
           the auditee’s response, along with our evaluation of that response, can be found in
           appendix B of this report. Due to the volume of the response attachments, they
           will be made available upon request.




                                             2
                             TABLE OF CONTENTS

Background and Objectives                                                            4

Results of Audit

        Finding 1: The Authority’s Section 8 Units Did Not Meet Housing Quality      5
        Standards

        Finding 2: The Authority Did Not Complete Timely Housing Quality Standards   12
        Inspections

Scope and Methodology                                                                15

Internal Controls                                                                    17

Appendixes

   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use               19
   B.   Auditee Comments and OIG’s Evaluation                                        20
   C.   Schedule of Units in Noncompliance with Housing Quality Standards            27
   D.   Schedule of Timeliness of Inspections                                        29
   E.   Criteria                                                                     31




                                              3
                       BACKGROUND AND OBJECTIVES

The Housing Authority of the County of Los Angeles (Authority) was created in 1938 to manage
and develop affordable housing. Since 1938, the Authority has administered federally funded
public housing, rental assistance programs, and services and special programs for residents of
public and assisted housing.

The county’s board of supervisors created the Los Angeles County Community Development
Commission in 1982 and combined it with the Authority. The Community Development
Commission manages programs in public and assisted housing, community development,
economic development, and housing development and preservation to improve the quality of life
in low- and moderate-income neighborhoods. The Authority comprises two divisions of the
Community Development Commission. The Housing Management Division manages public
housing and related programs and services, while the Assisted Housing Division administers
rental assistance programs.

The Authority administers a Section 8 Housing Choice Voucher program (program) funded by
the U.S. Department of Housing and Urban Development (HUD). The program allows low- and
moderate-income individuals to obtain affordable, decent, safe, and sanitary housing by
subsidizing rents with owners of existing private housing.

HUD’s approved budget authority for the Authority’s program for fiscal years 2004, 2005, and
2006 was $177.3 million, $179.9 million, and $181.6 million, respectively.

On June 13, 2006, the Los Angeles HUD Office of Inspector General (OIG) for Audit requested
permission to begin an audit of the Authority’s program based on a suggestion from the Los
Angeles HUD Office of Public Housing. The primary reason for the request for audit was
HUD’s 2004 Section Eight Management Assessment Program (SEMAP) confirmatory review,
which revealed that the Authority had a recurring problem of not conducting annual housing
quality standards inspections. In addition, the Authority was on a corrective action plan in 2004
for SEMAP Indicator 6: Housing Quality Standards Enforcement, and the Los Angeles HUD
Office of Public Housing had expressed concern over whether the Authority was performing
housing quality standards inspections and if so, whether it was performing them in a timely
manner.

The objective of the audit was to determine whether the Authority provided decent, safe, and
sanitary housing for its tenants, thereby meeting housing quality standards, and whether the
Authority’s inspections of its housing units were timely and sufficient to detect violations. This is
the first of two audit reports on the Authority’s program.




                                                   4
                                RESULTS OF AUDIT

Finding 1: The Authority’s Section 8 Units Did Not Meet Housing
Quality Standards
The Authority did not adequately enforce HUD’s housing quality standards. Of 68 program
units statistically selected for inspection, 50 did not meet minimum housing quality standards.
The violations existed because the Authority did not have adequate policies and procedures for
detecting all housing quality standards violations during its inspections. As a result, the
Authority did not properly use its program funds and program tenants lived in units that were not
decent, safe, and sanitary. Based on our statistical sample, we estimate that over the next year,
HUD will pay more than $11.5 million in housing assistance payments on units with material
housing quality standards violations if inspection procedures do not improve.


 HUD’s Housing Quality
 Standards Not Met


              From the 16,350 active program units in the Authority’s housing inventory as of
              July 1, 2006, we statistically selected 68 units for inspection. The 68 program units
              were inspected to determine whether the Authority ensured that its program units
              met HUD’s housing quality standards. The inspections took place between
              September 18 and September 29, 2006.

              Of the 68 units inspected, 50 (74 percent) had 217 housing quality standards
              violations; one of the units had 13 deficiencies. We also identified 114 violations
              (53 percent) in 37 units that predated the Authority’s latest inspection, but only
              seven (6 percent) of those 114 violations were included on the Authority’s latest
              inspection report. The following table categorizes the 217 housing quality standards
              violations in the 50 units.




                                                5
             Categories of violations                   Number of violations
Electrical                                                     106
Window                                                          16
Exterior surface                                                9
Other interior hazards                                          9
Range/oven                                                      8
Security                                                        8
Smoke detectors                                                 8
Stairs, rails, and porches                                      8
Lead-based paint                                                7
Wall                                                            6
Sink                                                            5
Tub/shower                                                      5
Water heater                                                    5
Floor                                                           4
Garbage and debris                                              4
Toilet                                                          2
Ventilation                                                     2
Heating equipment                                               1
Fire exits                                                      1
Interior stairs and common halls                                1
Roof                                                            1
Space for preparation, storage, and serving of food             1
              Total number of violations                       217

    In addition, we considered 12 of the units (18 percent) to be in material
    noncompliance with HUD requirements. The materially deficient units had 42
    severe violations that either existed prior to the Authority’s last inspection and/or
    created substantially unsafe tenant living conditions, including exposed electrical
    contacts or wiring, nonfunctioning ground fault circuit interrupters, broken exterior
    door locks and hinges, and holes rotted through the unit’s exterior siding. By
    contrast, those units that were not considered to be materially deficient had less
    severe violations such as cracked outlet cover plates, cracked window glass panes,
    missing dryer vent caps, and missing globes on wall lamps. These types of
    deficiencies also affected tenant health and safety, but not to a high enough degree
    alone to consider the units materially deficient. We also could not determine that
    these deficiencies necessarily existed for an extended period of time. Appendix C
    details the violations found in each of the 50 failed units, with an asterisk denoting
    which of the units were determined to be materially deficient.




                                       6
Types of Violations


            Our inspectors identified 106 electrical violations in 37 of the Authority’s
            program units inspected. The following items are examples of electrical
            violations listed in the table: outlets with open grounds, ground fault circuit
            interrupters that do not trip, exposed wiring, missing breakers, and missing outlet
            cover plates. The following pictures are examples of the electrical violations
            identified in the Authority’s program units inspected.




            An electric panel had no cover, leaving electrical contacts exposed.




            Improper wires were used to replace old wiring to bring power from the house to
            the garage. These wires need to be inside a conduit or other type of shielding and
            should not be exposed.



                                             7
           In addition, our inspectors identified 16 window violations in 10 of the
           Authority’s program units inspected. The window violations identified included
           cracked and/or broken glass panes and missing or defective security locks. The
           following picture is an example of the window violations identified in the
           Authority’s program units inspected.




             A broken glass pane on a kitchen window poses a cutting hazard.

           Our inspectors identified other violations, including but not limited to mold
           present in units, inoperable smoke detectors, garbage and debris in and around
           Authority program units, missing handrails on stairways, missing screens on
           outside vents, rotting/peeling interior and exterior paint, closet doors off track,
           leaking drain pipes, and loose and/or leaking toilets. The following pictures are
           examples of other violations identified in the Authority’s program units inspected.




The leaking sink drain pipe has caused damage The ceiling above the shower stall in the
and mold on the wall and cabinet bottom panel. second bathroom has mold and peeling paint.




                                            8
               Garbage and debris are in and around Authority program units.




There is rotting siding and a hole in the           The stairway to the basement has no handrail.
back wall of the house.




Lint collected behind the dryer, which is not       There is peeling paint on the living room wall.
connected to a vent, creating a fire hazard.

             We supplied our preliminary inspection results to the authority during the course
             of the inspections and our final and complete inspection results to the Authority’s
             executive director on November 15, 2006. On January 29, 2007, the Authority
             provided documentation indicating that it followed up on the 24-hour emergency
             deficiencies noted by our inspectors. However, in 24 of 32 units that were cited,
             there was no indication that the specific deficiency or deficiencies were corrected,

                                                9
            only that the unit had “passed.” The Authority also did not directly address the
            status of any deficiency not included on our preliminary notification but included
            on the final. For only three units with emergency deficiencies cited did the
            Authority provide documentation showing that the deficiencies had been
            specifically addressed.

            Federal regulations at 24 CFR [Code of Federal Regulations] 982.401 require that
            all program housing meet HUD’s housing quality standards performance
            requirements, both at commencement of assisted occupancy and throughout the
            assisted tenancy. In addition, 24 CFR [Code of Federal Regulations] 982.404
            requires owners of program units to maintain the units in accordance with HUD’s
            housing quality standards.


Inadequate Policies and
Procedures


            The housing quality standards violations existed because the Authority did not
            have adequate policies and procedures for detecting all housing quality standards
            violations during its inspections. The Authority’s administrative plan did not
            have sufficient guidance to comply with HUD requirements. Although the
            administrative plan included a list of housing quality standards, the list was
            incomplete when compared to HUD’s list of housing quality standards.
            Specifically, the administrative plan did not include guidance for key aspects of
            housing quality, including illumination and electricity, interior air quality, and
            water supply. In addition, it did not include a complete list of violations that
            should be categorized as emergency fail deficiencies.

            When we notified the Authority of our findings during the inspections of the 68
            program units, the Authority learned it did not have the proper tools for
            identifying all electrical housing quality standards violations. The Authority took
            immediate action and ordered electrical ground adapters and pocket testers for
            each of its inspectors.

            While the Authority has endeavored to comply with HUD requirements since our
            inspections, it should review its administrative plan to ensure compliance with all
            housing quality standards regulations.




                                             10
Recommendations



          We recommend that the acting director of HUD’s Los Angeles Office of Public
          Housing require the Authority to

          1A.     Implement adequate procedures and controls to ensure that units meet
                  HUD’s housing quality standards to prevent $11.5 million in program funds
                  from being spent on units that are in material noncompliance.

          1B.     Verify and certify that the owners took appropriate corrective actions for
                  all applicable housing quality standards violations. If appropriate actions
                  were not taken, the Authority should abate the rents or terminate the
                  housing assistance payment contracts.




                                           11
Finding 2: The Authority Did Not Complete Timely Housing Quality
Standards Inspections
The Authority did not always perform its annual inspections within one year. During fiscal years
2004, 2005, and 2006, only 7.14, 5.88, and 11.11 percent, respectively, of the annual inspections
for our statistical sample of 68 units were completed annually. The untimely inspections were a
result of the Authority’s failure to develop adequate controls to ensure policies and procedures
were followed in accordance with the requirements in its administrative plan and HUD
regulations to conduct inspections at least annually. In addition, the Authority did not have an
adequate tracking system in place to ensure that the list of units due for annual inspections was
complete. As a result, HUD faces an inherent risk that untimely inspections could result in
housing assistance payments for units that do not meet housing quality standards.


 Annual Inspections Not
 Performed in a Timely Manner


              A review of the timeliness of annual inspections revealed significant deficiencies.
              There were 186 inspections that fell within our analysis date range of July 1,
              2003, through October 31, 2006. Of those, 155 (83.3 percent) were completed
              late, one of which was 642 days (approximately 21 months) overdue. A summary
              of the Authority’s timeliness results for fiscal year 2004 through the first four
              months of fiscal year 2007 is in the table below.

                                       July 1, 2003 - October 31, 2006

                Total number of inspections completed between July 1, 2003,
                                                                                186
                and October 31, 2006, on the 68 units sampled:

                   Totals:   Delinquent 0 days                                   31    16.67%
                             Delinquent 1-50 days                                32    17.20%
                             Delinquent 51-100 days                              56    30.11%
                             Delinquent 101-200 days                             52    27.96%
                             Delinquent 201-300 days                              3     1.61%
                             Delinquent 301-400 days                              3     1.61%
                             Delinquent 401-500 days                              5     2.69%
                             Delinquent more than 500 days                        4     2.15%




                                               12
           For each full year tested, only a small percentage of annual inspections were
           completed for the 68 units in our sample within 365 days of the previous
           inspection (see appendix D):

               •   For fiscal year 2004, the Authority completed 42 annual inspections
                   between July 1, 2003, and June 30, 2004, of which only three (7.1 percent)
                   were completed on time.
               •   For fiscal year 2005, the Authority completed 51 annual inspections
                   between July 1, 2004, and June 30, 2005, of which only three (5.9 percent)
                   were completed on time.
               •   For fiscal year 2006, the Authority completed 63 annual inspections
                   between July 1, 2005, and June 30, 2006, of which only seven (11.1
                   percent) were completed on time.

           Further, we obtained data through October 31, 2006, for fiscal year 2007, which
           was the most current information available during our testing. Although the
           Authority showed improvement in the timeliness of its annual inspections for the
           first four months of fiscal year 2007, it is too early to reach a conclusion regarding
           its timeliness for the year. At the time of our review, the Authority had completed
           30 annual inspections for the 68 units in our sample. Of those 30 inspections,
           only 18 (60 percent) were completed within 365 days of the previous annual
           inspection. Of the remaining 38 units in our sample, most did not have annual
           inspections due as of October 31, 2006; however, we identified two that were
           already delinquent, one of which was 133 days overdue.

Inadequate Controls to Ensure
Timeliness

           Inspections were delinquent because the Authority did not develop adequate
           controls to ensure policies and procedures were followed in accordance to the
           requirements in its administrative plan and federal regulations at 24 CFR [Code of
           Federal Regulations] 982.405(a) to conduct inspections at least annually.
           Although the Authority’s administrative plan stated, “in order to assure that units
           meet housing quality standards throughout the assisted tenancy, the Housing
           Authority conducts inspections at least annually,” the Authority did not develop
           adequate controls to ensure this requirement was met, thereby enabling the
           delinquent inspections to occur.

           In addition, the Authority did not have an adequate tracking system in place to
           ensure that the list of units due for annual inspections was complete. The
           Authority used various “hold codes” in the computer system for reasons not
           pertaining to annual inspections; however, the hold codes kept some units that
           were due for annual inspection from appearing on the list of units needing
           inspection. The Authority’s timeliness for fiscal year 2007 improved when it
           addressed this issue of hold codes internally by removing some hold codes from

                                            13
          its system and providing more diligent research to determine whether units with
          remaining hold codes are due for annual inspection. However, it was still not
          completing all annual inspections within 365 days of the previous annual
          inspection as of October 31, 2006, which was the most current information
          available during our testing.

          The Authority’s untimely inspections put HUD at risk to make housing assistance
          payments for units that do not meet housing quality standards.

Recommendation



          We recommend that the acting director of HUD’s Los Angeles Office of Public
          Housing require the Authority to

          2A.    Develop adequate controls to enforce implementation of policies and
                 procedures to ensure that program units are inspected at least annually to
                 meet HUD’s housing quality standards before disbursing housing
                 assistance payments.




                                          14
                         SCOPE AND METHODOLOGY

We performed our on-site audit work from July 2006 through January 2007 at the Authority’s
office in Santa Fe Springs, California. The audit generally covered the period July 2003 through
September 2006. We expanded our audit period as needed to accomplish our objectives. We
reviewed guidance applicable to Section 8 housing quality standards, performed on-site
inspections with qualified HUD-OIG inspectors, and interviewed applicable housing authority
supervisors and staff.

To accomplish our audit objectives, we

     •   Reviewed applicable HUD regulations, including 24 CFR [Code of Federal
         Regulations] Part 982 and Housing Choice Voucher Guidebook 7420.10G.
     •   Reviewed the Authority’s administrative plans for 2003, 2004, and 2005.
     •   Reviewed the Authority’s quality control procedures and sampling methods.
     •   Interviewed personnel from the HUD Office of Public Housing, Los Angeles field
         office, to obtain background information on the Authority’s housing quality standards
         performance.
     •   Interviewed Authority supervisors and staff to determine their job responsibilities and
         their understanding of housing quality standards.
     •   Obtained and reviewed inspection files to obtain the results of inspections that were
         previously performed by the Authority.
     •   Analyzed databases provided by the Authority to determine the timeliness of the
         Authority’s inspections and to obtain a random sample of units.
     •   Conducted inspections of 68 randomly selected units with qualified HUD and HUD-
         OIG inspectors and recorded and summarized the inspection results provided.

We statistically selected a sample of 68 of the Authority’s program units to determine whether
the Authority ensured that its units met housing quality standards. The sample was based on the
Authority’s housing assistance payment register for one month as of July 1, 2006. The universe
contained 16,350 units that received regular housing assistance payments from the Authority as
of July 1, 2006. We obtained the sample based on a confidence level of 90 percent, a precision
level of 10 percent, and an assumed error rate of 50 percent. Twenty additional sample units
were selected to be used as replacements if necessary.

We reviewed the sample of 68 units and determined that 12 out of 50 failed units were materially
deficient and in noncompliance with housing quality standards. We determined that the 12 units
were in material noncompliance because they had 42 deficiencies that had existed for an
extended period and/or created unsafe living conditions. Eleven of the units had deficiencies that
existed before the Authority’s last inspection and also had deficiencies that created unsafe tenant
living conditions. One of the units contained deficiencies for which we were unable to determine

                                                15
how long they had existed. However, the deficiencies observed were significant enough to
create unsafe living conditions for the tenant. Therefore, we included this unit in our count of
materially deficient units.

Projecting the results of the 12 units that were in material noncompliance with housing quality
standards to the population indicates that 2,886 or 17.65 percent of the population contains the
attributes tested. The sampling error is plus or minus 7.59 percent. In other words, we are 90
percent confident that the frequency of occurrence of the attributes tested lies between 10.06 and
25.24 percent of the population. This equates to an occurrence of between 1,644 and 4,126 units
of the 16,350 units of the population.

   •   The lower limit is 10.06 percent x 16,350 units = 1,644 units in noncompliance with
       minimum housing quality standards.

   •   The point estimate is 17.65 percent x 16,350 units = 2,886 units in noncompliance with
       minimum housing quality standards.

   •   The upper limit is 25.24 percent x 16,350 units = 4,126 units in noncompliance with
       minimum housing quality standards.

Using the lower limit and the average annual housing assistance payments for the population
based on the Authority’s housing assistance payment register, dated August 1, 2005, through
July 31, 2006, we estimate that the Authority will spend at least $11,542,524 (1,644 units x
$7,021 average annual housing assistance payment) for units that are in material noncompliance
with housing quality standards. This estimate is presented solely to demonstrate the annual
amount of Section 8 program funds that could be put to better use on decent, safe, and sanitary
housing if the Authority implements our recommendations.

We performed our review in accordance with generally accepted government auditing standards.




                                                16
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •       Policies and procedures to ensure that housing quality standards program
                      objectives are met.
              •       Policies and procedures to ensure that program implementation is consistent
                      with laws, regulations, and provisions of contracts or grant agreements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses

              Based on our review, we believe the following items are significant weaknesses:

              The Authority did not have

              •       Adequate policies and procedures to ensure that inspections of Section 8
                      units detected all significant violations of housing quality standards (finding
                      1).




                                                17
•   Adequate controls to ensure policies and procedures to conduct annual
    inspections in a timely manner in accordance with 24 CFR [Code of
    Federal Regulations] 982.405 were followed (finding 2).




                            18
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation                            Funds to be put
                      number                                to better use 1/
                         1A                                   $11,542,524


1/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if the Authority implements our recommendations, it will
     cease to incur program costs for units that are not decent, safe, and sanitary. Instead, it
     will expend those funds for units that meet HUD’s standards. Once the Authority
     successfully improves its controls, this will be a recurring benefit. To be conservative,
     our estimate reflects only the initial year of this benefit.




                                              19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         20
21
22
Comment 1
Comment 2




Comment 3




            23
24
25
                         OIG Evaluation of Auditee Comments

Comment 1   We confirmed there were 50 units that did not meet minimum housing quality
            standards. It appears the Authority included one unit that passed inspection with a
            comment from our inspector in its count of failed units.

Comment 2   We reviewed attachment A of the Authority’s response. Although additional
            information was provided, the Authority still did not fully address the timely
            resolution of deficiencies for all failed units.

Comment 3   Per recommendation 2A, HUD should evaluate the adequacy and implementation
            of the procedures referenced by the Authority in attachment B.




                                            26
    Appendix C

                      SCHEDULE OF UNITS IN NONCOMPLIANCE
                        WITH HOUSING QUALITY STANDARDS

 Item                                    Number of violations per lettered category
                                                                                                                                           Totals
number     A B C D E                    F G H I J K L M N O P Q R                                                    S    T U V
   1*              1                                                   2 1                                                                   4
    2                                                              1                                                                         1
    3                  1                1                                                                                                    2
   4*        1                             1 1                             1                                                                 4
    5        1         1    1                                  1                                                                             4
    6             1                     2                                                                                                    3
    7                                      1                                                                                                 1
    8        1         2                      1                    1                                                             1           6
   9*        8                          1 1                        1                                                                        11
  10*        2    1         1     3     1             1                             1                                                       10
   11                                      2                                                                                                 2
   12                                                                                                                      1                 1
   13                                         1                                                                                              1
   14        4    1                                                                                                                          5
   15        7    1                                                                                                                          8
   16        8                          1                                        1                                                          10
   17        2                                                                                                                               2
   18        2                                                                                     1                                         3
   19        1                                                                                                                               1
   20        3              1                                                                                                                4
   21        2              1                                                                                                                3
  22*                                               1           1     1                                                                1     4

                                          Category of violations legend
    A    –       Electrical                  L – Tub/shower
    B    –       Window                     M – Water heater
    C    –       Exterior surface            N – Floor
    D    –       Other interior hazards      O – Garbage and debris
    E    –       Range/oven                  P – Toilet
    F    –       Security                    Q – Ventilation
    G    –       Smoke detectors             R – Heating equipment
    H    –       Stairs, rails, and porches S – Fire exits
    I    –       Lead-based paint            T – Interior stairs and common halls
    J    –       Wall                        U – Roof
    K    –       Sink                        V – Space for preparation, storage, and serving of food
    * Denotes unit determined to be materially deficient based on severity of violations and/or whether they existed an extended period.


                                                                      27
  Item                               Number of violations per lettered category
                                                                                                                                                 Totals
number         A        B      C D E F G H I J K L M N O P Q R S T U V
    23         1                 2                                                                                                                  3
   24*         5         1             1              1 1                                                                                           9
   25*                             1             2                                                                                                  3
    26                                       1                                                                                                      1
    27         2                                                                                                                                    2
   28*         2                     1                            3                                                                                 6
    29         3                1                                                                                                                   4
    30         1                                                                                                                                    1
    31                               1                                       1    1                                                                 3
   32*         2                1                           1                                      1                                                5
    33         2                                                                                                                                    2
    34         1                                                                  2                                                                 3
   35*         4         5      1                     1     1                1                                                                     13
    36         4                1                                                                                                                   5
    37         1                                                                                                                                    1
    38                                     1          1                                                                                             2
    39         7                                            1                                                                                       8
   40*         5         2                       1          1                                                             1                        10
   41*         2                     1                            2    2                                       1                                    8
    42         3                                                                        1                                                           4
    43         2                                                                                                                                    2
    44         2         2                 1                           1                                                                            6
    45         3                                                             1                           1     1                                    6
    46         1         1                                                                    2                                                     4
    47         2                                                                  1                                                                 3
    48         3                           1                                                                                                        4
    49         3                                                                                                                                    3
    50         3         1      1                                                                  1                                                6
 Totals       106       16      9    9     8     8    8     8     7    6     5    5     5     4    4     2     2    1     1     1    1     1      217

                                             Category of violations legend
          A    –    Electrical                  L – Tub/shower
          B    –    Window                     M – Water heater
          C    –    Exterior surface            N – Floor
          D    –    Other interior hazards      O – Garbage and debris
          E    –    Range/oven                  P – Toilet
          F    –    Security                    Q – Ventilation
          G    –    Smoke detectors             R – Heating equipment
          H    –    Stairs, rails, and porches S – Fire exits
          I    –    Lead-based paint            T – Interior stairs and common halls
          J    –    Wall                        U – Roof
          K    –    Sink                        V – Space for preparation, storage, and serving of food
          * Denotes unit determined to be materially deficient based on severity of violations and/or whether they existed an extended period.


                                                                           28
Appendix D

       SCHEDULE OF TIMELINESS OF INSPECTIONS


                                   Fiscal year 2004
                             July 1, 2003 - June 30, 2004

    Total number of inspections completed between July 1, 2003,
    and June 30, 2004, on the 68 units sampled:                    42

      Totals:    Delinquent 0 days                                 3    7.14%
                 Delinquent 1-50 days                              0    0.00%
                 Delinquent 51-100 days                            3    7.14%
                 Delinquent 101-200 days                           23   54.76%
                 Delinquent 201-300 days                           2    4.76%
                 Delinquent 301-400 days                           2    4.76%
                 Delinquent 401-500 days                           5    11.90%
                 Delinquent more than 500 days                     4    9.52%


                                   Fiscal year 2005
                             July 1, 2004 - June 30, 2005

    Total number of inspections completed between July, 1, 2004,
    and June 30, 2005, on the 68 units sampled:                    51

      Totals:    Delinquent 0 days                                 3    5.88%
                 Delinquent 1-50 days                              2    3.92%
                 Delinquent 51-100 days                            20   39.22%
                 Delinquent 101-200 days                           25   49.02%
                 Delinquent 201-300 days                            0   0.00%
                 Delinquent 301-400 days                            1   1.96%
                 Delinquent 401-500 days                            0   0.00%
                 Delinquent more than 500 days                     0    0.00%




                                          29
                              Fiscal year 2006
                        July 1, 2005 - June 30, 2006

Total number of inspections completed between July 1, 2005,
and June 30, 2006, on the 68 units sampled:                   63

  Totals:    Delinquent 0 days                                 7   11.11%
             Delinquent 1-50 days                             23   36.51%
             Delinquent 51-100 days                           29   46.03%
             Delinquent 101-200 days                           3    4.76%
             Delinquent 201-300 days                           1    1.59%
             Delinquent 301-400 days                           0    0.00%
             Delinquent 401-500 days                           0    0.00%
             Delinquent more than 500 days                     0    0.00%


                          Fiscal year 2007 (partial)
                       July 1, 2006 - October 31, 2006

Total number of inspections completed between July 1, 2006,
and October 31, 2006, on the 68 units sampled:                30

  Totals:    Delinquent 0 days                                18   60.00%
             Delinquent 1-50 days                              7   23.33%
             Delinquent 51-100 days                            4   13.33%
             Delinquent 101-200 days                           1    3.33%
             Delinquent 201-300 days                           0    0.00%
             Delinquent 301-400 days                           0    0.00%
             Delinquent 401-500 days                           0    0.00%
             Delinquent more than 500 days                     0    0.00%




                                     30
Appendix E

                                      CRITERIA

    The following sections of the Code of Federal Regulations apply to housing quality
    standards inspections:

       •   24 CFR [Code of Federal Regulations] 982.54(a) requires the public housing
           authority to adopt a written administrative plan that establishes local policies for
           administration of the program in accordance with HUD requirements.

       •   24 CFR [Code of Federal Regulations] 982.54(d)(22) states that the public
           housing authority administrative plan must cover policies, procedural guidelines,
           and performance standards for conducting required housing quality standards
           inspections.

       •   24 CFR [Code of Federal Regulations] 982.305(a) states that the public housing
           authority may not give approval for the family of the assisted tenancy or execute a
           housing assistance payments contract until the authority has determined that the
           unit is eligible and has been inspected by the authority and meets HUD’s housing
           quality standards.

       •   24 CFR [Code of Federal Regulations] 982.401(a) identifies the housing quality
           standards for assisted housing, including performance and acceptability criteria
           for key aspects of housing quality.

       •   24 CFR [Code of Federal Regulations] 982.401(a)(3) requires that all program
           housing meet housing quality standards performance requirements, both at
           commencement of assisted occupancy and throughout the assisted tenancy.

       •   24 CFR [Code of Federal Regulations] 982.404(a)(1) requires the owners of
           program units to maintain the units in accordance with HUD’s housing quality
           standards.

       •   24 CFR [Code of Federal Regulations] 982.404(a)(2) states that if the owner of
           the program unit fails to maintain the dwelling unit in accordance with HUD’s
           housing quality standards, the authority must take prompt and vigorous action to
           enforce the owner’s obligations. The authority’s remedies for such a breach of
           the housing quality standards include termination, suspension, or reduction of
           housing assistance payments and termination of the housing assistance payments
           contract.

       •   24 CFR [Code of Federal Regulations] 982.405(a) requires public housing
           authorities to perform unit inspections before the initial term of the lease, at least

                                             31
•   annually during assisted occupancy, and at other times as needed to determine
    whether the unit meets the housing quality standards.




                                    32
